Case: 20-12175

Date Filed: 09/14/2020

Page: 1 of 6

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-12175
Non-Argument Calendar
D.C. Docket No. 4:08-cr-00038-RH-GRJ-2
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
KEVIN LAMAR RATLIFF,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Florida
(September 14,2020)
Before WILSON, JILL PRYOR and ANDERSON, Circuit Judges.
PER CURIAM:
Kevin Ratliff, a federal prisoner proceeding pro se, appeals the district court’s
denial of his motion to reduce sentence under 18 U.S.C. § 3582(c)(2). The district

Case: 20-12175

Date Filed:'09/14/2020

Page: 2 of 6

court concluded that Ratliff was ineligible for a sentence reduction because, as his
guideline range was based on his career offender enhancement, Amendment 782 did
not lower his guideline range. The government has moved for summary affirmance
and to stay the briefing schedule.
Summary disposition is appropriate either where time is of the essence, such
as “situations where important public policy issues are involved or those where
rights delayed are rights denied,” or where “the position of one of the parties is
clearly right as a matter of law so that there can be no substantial question as to the
outcome of the case, or where, as is more frequently the case, the appeal is
frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158,1162 (5th Cir. 1969).
When appropriate, we will review de novo the district court’s legal
conclusions about the scope of its authority under 18 U.S.C. § 3582(c)(2). United
States v. Lawson, 686 F.3d 1317, 1319 (11th Cir. 2012). However, if § 3582(c)(2)
applies, we review the district court’s decision to grant or deny a sentence reduction
only for abuse of discretion. United States v. Caraballo-Martinez, 866 F.3d 1233,
1238 (11th Cir. 2017). Claims not briefed on appeal are deemed abandoned and
, issues raised for the first time on appeal are deemed waived. Access Now, Inc. v.
Sw. Airlines Co., 385 F.3d 1324, 1330-31 (11th Cir. 2004).

1 We are bound by cases decided by the former Fifth Circuit before October 1, 1981.
Bonner v. City ofPritchard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).
2

Case: 20-12175

Date Filed: 09/14/2020

Page: 3 of 6

A district court may modify a defendant’s term of imprisonment if the
defendant was sentenced based on a sentencing range that has subsequently been
lowered by the Sentencing Commission. 18 U.S.C. § 3582(c)(2). A defendant is
eligible for a sentence reduction under § 3582(c)(2) when an amendment listed in
U.S.S.G. § IB 1.10(d) lowers his guideline range as calculated by the sentencing
court. U.S.S.G. § 1B1.10 comment. (n.l(A)). Under § 3582(c)(2), a district court
must first recalculate the defendant’s sentence under the amended guideline range
and, in doing so, “[a]ll other guideline application decisions made during the original
sentencing remain intact.” United States v. Bravo, 203 F.3d 778, 780 (11th Cir.
2000).

A district court is not authorized to reduce a defendant’s sentence under
§ 3582(c)(2) where a retroactively applicable guidelines amendment reduces his
base offense level but does not alter the guideline range upon which his sentence
was based.

United States v. Moore, 541 F.3d 1323, 1330 (11th Cir. 2008).

Specifically, when a drug offender is sentenced under the career offender guideline
in § 4B1.1, his guideline range is calculated based on § 4B1.1, not § 2D 1.1. Lawson,
686 F.3d at 1321. Because an amendment to § 2D 1.1 does not affect a career
offender’s guideline range, he is ineligible for a sentence reduction under
§ 3582(c)(2) based on an amendment to that guideline. See id. (affirming the denial

3

Case: 20-12175

Date Filed: 09/14/2020

Page: 4 of 6

of a § 3582(c)(2) motion based on Amendment 750 to the Sentencing Guidelines,
U.S.S.G. App. C., Amend. 750 (2011)).
Section 2D 1.1(c) of the Sentencing Guidelines provides base offense levels
for drug offenses based on the type and quantity of drug involved. See U.S.S.G.
§ 2D 1.1(c). Amendment 782 to the Sentencing Guidelines altered the base offense
levels applicable to certain drug offenses. See U.S.S.G. App. C, Amend. 782 (2014).
As an initial matter, Ratliff has abandoned any challenge to the district court’s
denial of his § 3582(c)(2) motion based on Amendments 706 and 7502 by failing to
present any arguments as to those amendments on appeal. See Access Now, Inc.,
385 F.3d at 1330-31. Ratliff also waived our consideration of his Alleyne v. United
States3 and Molina-Martinez v. United States4 argument by raising it for the first
time on appeal. See Access Now, Inc., 385 F.3d at 1330-31. And we may not
consider the arguments based on Sessions v. Dimaya5 and United States v. Davis6
that Ratliff raised for the first time in response to the government’s motion to
dismiss. See Access Now, Inc., 385 F.3d at 1330-31.

2 U.S.S.G. App. C, Amend. 706, 750.
3 570 U.S. 99 (2013).
4 136 S. Ct. 1338 (2016).
5 138 S. Ct. 1204(2018).
6 139 S. Ct. 2319(2019).
4
\

Case: 20-12175

Date Filed: 09/14/2020

Page: 5 of 6

Even if we considered these arguments, however, they are without merit.
Section 3582(c)(2) authorizes only a limited resentencing based on an amendment
to the applicable guideline range and, therefore, the district court was without
authority to consider claims based on Supreme Court decisions in such a proceeding.
See Bravo, 203 F.3d at 780-81.
Moreover, the government’s position that Ratliff was ineligible for a sentence
reduction based on Amendment 782 due to his career offender enhancement is
correct as a matter of law. See Groendyke Transp., Inc., 406 F.2d at 1162. Ratliff
is correct that Amendment 782 may have reduced his base offense level under
§ 2D 1.1 as it was calculated based on attributable drug quantity. However, his
guideline range was unaffected by Amendment 782 because his total adjusted
offense level and criminal history category were determined under § 4B1.1 rather
than § 2D 1.1. See Lawson, 686 F.3d at 1321. Thus, because Amendment 782 did
not impact the career offender guideline in § 4B1.1, Ratliff was ineligible for a
sentence reduction under § 3582(c)(2) based on that amendment. See Moore, 541
F.3d at 1330.
There is no substantial question that the district court lacked authorization to
reduce Ratliffs sentence based on Amendment 782 and properly denied Ratliffs
§ 3582(c)(2) motion. See Groendyke Transp., Inc., 406 F.2d at 1162. We therefore

5
/
/

Case: 20-12175

Date Filed: 09/14/2020

Page: 6 of 6

GRANT the government’s motion for summary affirmance and DENY AS MOOT
its motion to stay the briefing schedule.

6

Case 4:08-cr-00038-RH-GRJ Document 200 Filed 05/29/20 Page 1 of 3
Page 1 of 3

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
UNITED STATES OF AMERICA
v.

CASE NO. 4:08cr38-RH

KEVIN LAMAR RATLIFF,
Defendant.

ORDER DENYING A SENTENCE REDUCTION
UNDER AMENDMENTS 706 AND 782

The defendant Kevin Lamar Ratliff has moved to reduce his sentence under
United States Sentencing Guidelines Amendments 706 and 782. But Mr. Ratliff
was sentenced as a career offender, not based on the drug guideline that was
reduced by Amendments 706 and 782 (as well as by Amendment 750). He is not
eligible for a reduction. This order denies relief.
The Sentencing Guidelines establish a guideline range for each defendant.
The range is based on the defendant’s “total offense level” and “criminal history
category.” The total offense level is based on the defendant’s “base offense level”
with increases or decreases based on specific offense characteristics. For drug
offenses, the base offense level ordinarily turns on the type and quantity of drugs

Case No. 4:08cr38-RH

Case 4:08-cr-00038-RH-GRJ Document 200 Filed 05/29/20 Page 2 of 3
Page 2 of 3

properly attributed to the defendant. See U.S. Sentencing Guidelines Manual
§ 2D1.1 (2014). For a defendant who is a “career offender,” however, the base
offense level is the greater of the drug offense level or the career-offender level.
See id. §4B 1.1(b).
Amendments 706, 750, and 782 reduced the base offense level for many
drug offenses. The amendments did not, however, affect the separate careeroffender offense level. The offense level of a career offender was and still is
determined under a wholly separate guideline. A district court may reduce the
sentence of a defendant “who has been sentenced to a term of imprisonment based
on a sentencing range that has subsequently been lowered by the Sentencing
Commission.” 18 U.S.C. § 3582(c)(2) (emphasis added). But a district court must
not reduce the sentence of a defendant whose range has not been lowered. Because
the career-offender guideline range has not been changed, Mr. Ratliff is not
eligible for a reduction.
The Eleventh Circuit has’squarely so held. See United States v. Berry, 701
F.3d 374, 376 (11th Cir. 2012) (Amendment 750); United States v. Moore, 541 F.
3d 1323, 1327 (11th Cir. 2008) (Amendment 706). See also United States v. Allen,
623 F. App’x 529, 530 (11th Cir. 2015) (unpublished) (“[The defendant] was not
eligible for a reduction in sentence because Amendment 782 did not have the effect

Case No. 4:08cr38-RH

Case 4:08-cr-00038-RH-GRJ Document 200 Filed 05/29/20 Page 3 of 3
Page 3 of 3

of reducing his sentence range under the Guidelines due to his status as a career
offender and the operation of § 4B1.1.”).
Mr. Ratliff has also moved to appoint an attorney. Because the result is
clear, appointing an attorney would serve no purpose. But a copy of this order will
be provided to the Federal Public Defender, who has represented Mr. Ratliff on
other issues. The Federal Public Defender may, if he wishes, move to be appointed
to represent Mr. Ratliff and may move to reconsider this order.
For these reasons,
IT IS ORDERED:
1. The motion to reduce the sentence, ECF No. 192, is denied.
2. The motion to appoint an attorney, ECF No. 193, is denied.
3. The clerk must provide a copy of this order to Mr. Ratliff himself by mail
and to the attorneys of record and the Federal Public Defender through the
electronic filing system.
SO ORDERED on May 29, 2020.
s/Robert L, Hinkle
United States District Judge

Case No. 4:08cr38-RH

Mx-'c"

■r- ■

1

UNITED STATE^DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA FEDERAL PUBLIC DEFEHDIR
TALLAHASSEE DIVISION
RECEIVED

■ MN 2 7 2009
H^MJLAHASSEE, FL
UNITED STATES

)

) Case No. - 4.08cr38-RH
Plaintiff,

)

) Tallahassee, Florida
) December 18.- 2008
) 1:24 P.M.

vs.
KEVIN LAMAR RATLIFF r
Defendant.

)
)
)
)

TRANSCRIPT OF SENTENCING PROCEEDINGS
BEFORE THE HONORABLE ROBERT L. HINKLE,
CHIEF UNITED STATES DISTRICT JUDGE

APPEARANCES:
For the Plaintiff:

For the Defendant:

Thomas F. Kirwin
Acting United States Attorney
By: MICHAEL T. SIMPSON
Assistant U . S . Attorney
111 North Adams Street
Tallahassee, Florida 32301
Randolph P. Murrell
. Federal Public Defender
By: WILLIAM R. CLARK, JR.
Asst. Federal Public Defender
227 North Bronough Street
Tallahassee, Florida. 32301

JUDY A. NOLTOn, RMR
Official United States Court Reporze
■

Ill North Adams Street * T:\llahassee, Florida
(85G) 561-6822

<72!

• 2"
13
1

And then with respect to the drug amount, it is true

2 | that the jury found that the amount involved, with which
3

Mr. Ratliff was involved was less than 50 grams.

4

Mr. Simpson's statement that he has been called by jurors who

5

said that it was a compromise.

6

that is inadmissible, so I disregard it.

7

I disregard

Under Rule 606, anything like

Parenthetically, I'm not sure which way it cuts.

If

8

it's a compromised verdict, it seems to me it cuts against

9

upholding the verdict, and would call not for a change in the

10

drug amount, but for a new trial.
>

11

But, again, jurors say things after trials for all

12

kinds of reasons.

13

than the others.

14 ■

reason; precisely, so we don't get into that kind of inquiry.

15

Now,

Some of the 12 have a different perspective
Rule 606 is in the book for a very good

I do think the presentence report has correctly

16

calculated the drug amount.

17

the standard of proof beyond a reasonable doubt.

18

Court in the Watts decision has made it clear that an

19

acquittal of a defendant does not mean that the charged

20

conduct cannot be held against the defendant for purposes of

21

sentencing on other counts or for sentencing on charges of

22

which the defendant is convicted, and the reason is the burden

23

of proof-

24
25

The jury's verdict is based on
The Supreme

The fact that the proof is not sufficient to
establish guilt beyond a reasonable doubt does not mean that

